                      U.S. Department of Agriculture
                         Office of Inspector General




Funds Provided by the American Recovery
and Reinvestment Act for Management and
 Oversight of the Supplemental Nutrition
          Assistance Program




                              Audit Report 27703-01-Hy
                                       December 2009
                                 U.S. Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250


DATE:          December 16, 2009

REPLY TO
ATTN OF:       27703-01-Hy

TO:            Julie Paradis
               Administrator
               Food and Nutrition Service

ATTN:          Lael Lubing
               Director
               Grants Management Division

FROM:          Robert W. Young /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Funds Provided by the American Recovery and Reinvestment Act for
               Management and Oversight of the Supplemental Nutrition Assistance Program

Summary
This report presents the results of our audit of the Food and Nutrition Service’s (FNS) use of
funds provided by the American Recovery and Reinvestment Act of 2009 (Recovery Act) for
management and oversight of the Supplemental Nutrition Assistance Program (SNAP). The
Recovery Act provided $295 million in additional administrative expenses to handle the
anticipated increase in caseloads for the next 2 years, of which Congress appropriated $290.5
million to the States. Our audit was limited to the remaining portion of these funds, $4.5 million
that was appropriated for FNS management and oversight of SNAP and for monitoring the
integrity and evaluating the effects of payments made under the Recovery Act.
The Office of Inspectors General’s (OIG) role, as mandated by the Recovery Act, was to oversee
agency activities and to ensure that funds were expended in a manner that minimized the risk of
improper use. We conducted our audit at FNS Headquarters to determine whether FNS officials
plan to use the $4.5 million for management oversight in accordance with the requirements of the
Recovery Act. We examined the agency’s Recovery Act Plan, which described the SNAP
policies and procedures, as well as its internal controls. We found that FNS officials’ plans for
using the oversight funds - $4.35 million for 2 studies focused on Recovery Act outcomes and
$150,000 for Financial Management Reviews - were allowed by the provisions of the Recovery

                                                                   Audit Report 27703-01-Hy
                                                                            December 2009
Act. As discussed with agency officials during the audit, we had concerns with FNS’ plan to use
less than 4 percent of the available oversight funds for additional on-site financial management
reviews at the States, which FNS’ Recovery Plan identified as a key internal control. However,
FNS officials believe it already has a robust oversight process in place. We plan to examine this
control as we continue our FNS Recovery Act audits.

Background
In response to the economic downturn, Congress passed - and the President signed into law on
February 17, 2009 - the Recovery Act. It provided FNS $19.8 billion for increased benefits (13.6
percent) in food allotments over a 5-year period for the SNAP and $295 million in additional
administrative expenses to handle the increasing caseloads. The Recovery Act provided that FNS
use the administrative expense funds for necessary management and oversight of the program, and
for monitoring the integrity and evaluating the effects of the payments made under the related
sections of the Recovery Act.

FNS, an agency within the U.S. Department of Agriculture (USDA), administers nutrition
assistance programs to provide children and needy families’ better access to food and a more
healthful diet. SNAP is used to assist low-income individuals and families in obtaining a more
nutritious diet by supplementing their incomes with benefits to purchase food they need for
healthy eating choices. SNAP is administered by FNS through a Federal-State partnership in
which USDA pays the full cost of recipient benefits and shares the cost to administer SNAP with
the States. In fiscal year (FY) 2008, FNS disbursed over $34.6 billion in recipient benefits that
were used by an average of 28 million participants nationwide per month. Since then, caseloads
have increased over 16 percent.

FNS provides management and oversight and Congress authorized FNS $4.5 million of the $295
million for management, oversight and evaluation. FNS monitors State administrative expenses
by reviewing budgets/financial reports submitted by States, conducting on-site Financial
Management Reviews (FMR) and Management Evaluations of State operations, and reviewing
each State’s Single Audit. 1 FNS monitors recipient eligibility determinations by each State
through a Quality Control process where the States review a statistically valid sample of
applications to ensure the certifying employees correctly determined the applicant’s eligibility,
and computed the participant’s entitlement.

Congress, in enacting the Recovery Act, emphasized the need for accountability and
transparency in the expenditure of the funds. On February 18, 2009, the Office of Management
and Budget (OMB) issued guidance that required Federal agencies to establish rigorous internal


1
    Financial Management Reviews, Management Evaluations and Single Audits are reviews of grantees (State
    agencies and Indian Tribal Organizations) operations, which are used by FNS officials to obtain reasonable
    assurance that the financial information reported by grantees is correct and complete; that it represents proper
    expenditures of Federal funding provided; and that all other applicable financial requirements, regulations and
    statues are met.


                                                                                                                       2
controls, oversight mechanisms, and other approaches to meet the accountability objectives of
the Recovery Act. OMB issued additional guidance on April 13, 2009, to reinforce ongoing
work by clarifying existing requirements and establishing additional steps that must be taken to
facilitate the accountability and transparency objectives of the Recovery Act.

Objectives
Our audit objectives were to ensure that: (1) SNAP administrative expenses are timely and
effectively used; and (2) proper internal control procedures are established. However, the scope
of this audit was limited to the $4.5 million provided by the Recovery Act for FNS management
oversight.

Details: FNS Management Oversight
FNS officials informed us that the majority of the $4.5 million for their administrative funds
would be used to evaluate the effects of Recovery Act expenditures on participating individuals.
Specifically, FNS officials plan on using (1) approximately $4 million dollars to measure the
impact of a post-stimulus SNAP on food insecurity and hunger and (2) approximately
$350,000 to assess the rate of monthly benefit spend down among SNAP households before and
after benefit increases provided by the Recovery Act into SNAP. They plan to use the
remaining funds, approximately $150,000, for expenses incurred by Headquarters personnel
assisting regional personnel review State agencies’ operations.
The Recovery Act provided $295 million additional administrative expenses to handle the
anticipated increase in caseloads for the next 2 years, of which $4.5 million was for necessary
expenses of the FNS for management and oversight of the program and for monitoring the
integrity and evaluating the effects of payments made under the Recovery Act. In the FNS
Recovery Act Plan, 2 FNS officials stated that the Recovery Act requires an unprecedented level
of transparency, oversight, and accountability to ensure that funds are used according to the
Act’s requirements. According to the Plan, FNS officials intended to rely primarily 3 on the
Financial Management Review (FMR) process to provide oversight of Recovery Act funds. As
part of the Recovery Act Plan, FNS officials proposed both to increase the number of FMRs
conducted during FY’s 2009 and 2010, and to target these reviews using a risk management
assessment. Such an assessment would identify, for FNS management, which States (as well as
program areas within each State) may require either more or less oversight based on risk
factors. 4 FNS Headquarters verbally instructed each regional office to perform FMRs on 50
percent of the States within each region during FY’s 2009 and 2010. The selection of individual


2
    United States Department of Agriculture Food and Nutrition Service, American Recovery and Reinvestment Act Plan, May 13,
    2009.
3
    In discussions with FNS personnel on August 19 and 21, 2009, FNS officials asserted FMRs were one of a variety of tools
    used to monitor the Recovery Act’s implementation.
4
    Some of the risk factors agencies should consider when assessing initial risk: (1) which programs are receiving
    the most funding; (2) are there performance issues with current or potential funding for recipients; and (3) are
    program outputs and outcomes clear and measurable.
                                                                                                                              3
States to be reviewed was left to each region. 5 We plan to further examine FNS’ use of FMRs to
provide oversight of Recovery Act SNAP funds as part of subsequent work that involves testing
at FNS regional offices and State agencies.

We concluded that FNS’ plans for using the oversight funds - $4.35 million for 2 studies that will
examine Recovery Act outcomes in the SNAP and $150,000 for FMRs - were allowed by the
provisions of the Recovery Act. As discussed with agency officials during the audit, we had
concerns with FNS’ plan to use less than 4 percent of the available oversight funds on FMRs,
which FNS’ Recovery Plan identified as a key internal control. However, FNS officials believe it
already has a robust oversight process in place. We plan to examine this control as we continue
our FNS Recovery Act audits.


We are not making any recommendations within this report and no further action or response to
us is required.

Scope and Methodology
We performed audit work at the FNS Headquarters in Alexandria, Virginia. We evaluated
pertinent laws and regulations, program policies and procedures, and interviewed appropriate
FNS officials. We examined guidance provided to the regional and States offices and evaluated
planned oversight activities by FNS. FNS oversight activities included on-site reviews at the
States, analysis of Quality Control data to monitor error rates, and reporting required by OMB.
We performed our audit fieldwork from May through September 2009. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our conclusions based on our audit objective. We believe that the
evidence obtained provided a reasonable basis for our conclusions based on our audit objectives.

To accomplish our objectives, we assessed the program’s policies and procedures, as well as its
internal controls, and discussed them with FNS Headquarters officials. Specifically, we
examined the FNS Recovery Act Plan. We reviewed guidance provided to the FNS regional
offices and States on the use of Recovery Act funds. We also examined FNS’ risk management
assessment to determine the extent of monitoring State operations to ensure the proper use of
funds provided to them. We conducted our review of program administration at FNS
Headquarters and did not perform any testing at regional or State offices.




5
    FNS developed an addendum to the FMR guide for reviewing the $290.5 million allocated to States, and provided
    it to the regional offices in July 2009.
                                                                                                                4
Informational copies of this report have been distributed to:
   Administrator, FNS, Attn: Agency Liaison Officer (8)
   Director, Civil Rights (1)
   Office of Management and Budget (1)
   Government Accountability Office (1)
   Office of Management and Budget (1)
   Office of the Chief Financial Officer
   Director, Planning and Accountability Division (1)
